HHS/OIG-Audit--"Review of Recharge Centers at the University of Utah,(A-08-95-00907)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Recharge Centers at the University of Utah," (A-08-95-00907)
September 6, 1995
Complete Text of Report is available in PDF format
(437 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Recharge Centers at the University
of Utah (University), Salt Lake City, Utah. The purpose of our review was to
determine the adequacy of University procedures and controls over the operation
of recharge centers. The University generally operated its recharge center in
a satisfactory manner. Based on the recharge centers reviewed, however, we found
the need for improved procedures and controls to fully comply with all the requirements
of Office of Management and Budget Circular A-21, Cost Principles for Educational
Institutions. The University did not ensure that recharge centers periodically
adjusted billing rates to attempt break-even over a long-term period. Also,
the recharge centers improperly recovered equipment costs. We are recommending
that the University implement certain procedures and controls over the operation
of recharge centers.